                                          FY 2001 INVENTORY OF COMMERCIAL ACTIVITIES

                                              ENVIRONMENTAL PROTECTION AGENCY

                                                OFFICE OF THE INSPECTOR GENERAL


Org Unit     State         Location        FTE          Activity Function Code          Reason        Year of           Federal Official Responsible     EPA
                                                                                         Code       Appearance                                         Strategic
                                                                                                    Under FAIR                                           Goal
 OIG          DC      Washington1          48        I420                                  B            1999         Gary L. Johnson                     10
                                                                                                                     Assistant Inspector General for
                                                                                                                       Human Capital
                                                                                                                     202-260-4915
 OIG          DC      Washington                                                           B            1999         John C. Jones                       10
                      (HRD)                 3      B700                                                              Assistant Inspector General for
                                            1      B200                                                                Mission Systems
                      (ISD)                 6      W826                                                              202-260-3137
                                            2      W999




     1
       Activity is centrally managed from Washington, DC with work performed in various geographic locations throughout the country.
